           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
    MATCH OF DISABILITY INSURANCE
     RECORDS WITH TEXAS WORKERS’
     COMPENSATION PAYMENT DATA

   August 2005       A-06-05-15024




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM


Date:   August 5, 2005                                                         Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Match of Disability Insurance Records with Texas
        Workers’ Compensation Payment Data (A-06-05-15024)


        OBJECTIVE
        Our objective was to report on the status of the Social Security Administration’s (SSA)
        pilot project matching Disability Insurance (DI) records with Texas workers’
        compensation (WC) payment data. Specifically, we evaluated procedures used to
        complete the matching process, summarized the impact of unreported and incorrectly
        reported Texas WC payments on DI benefits, and determined the status of collection
        and payment of over/underpayments identified during the matching process.

        BACKGROUND
        Individuals who qualify for DI benefits under Title II of the Social Security Act may also
        be eligible for cash benefits under State WC programs. DI benefits are reduced if total
        DI plus WC benefits received exceed applicable limits.1 SSA informs claimants, at the
        time of application for benefits, of the requirement to report WC information to SSA and
        relies on the beneficiary to report this information.

        Our December 1999 report, Workers’ Compensation Unreported by Social Security
        Beneficiaries, noted SSA made inaccurate DI benefit payments because the
        beneficiaries did not report changes in WC status and benefits. We recommended that
        SSA negotiate agreements with State officials to periodically obtain State WC payment
        information. Such data would enable SSA to match actual WC payments with amounts
        recorded on SSA’s records. On August 15, 2000, SSA and the Texas Workers’
        Compensation Commission signed an agreement for Texas WC payment information to
        be provided to SSA for a data match. By December 2001, Texas provided SSA with
        data files containing WC payment information from the period April 1991 through
        November 2001. Appendix A provides the scope and methodology of our review.


        1
            SSA, Program Operations Manual System, DI 52001.001(A)(2), Offset Provisions.
Page 2 – The Commissioner

RESULTS OF REVIEW
SSA’s procedures for determining the cost-effectiveness of the data match and
identifying unreported or incorrectly reported WC benefits were effective and provided
assurance that inaccurate DI payments were detected and resolved. SSA completed its
DI beneficiary data match with the Texas WC data in May 2003. To determine the cost-
effectiveness of the pilot project, SSA used a sample of all records identified. Based on
this sample, SSA projected that overpayments identified would exceed the cost of
conducting the analysis by $10.4 million. However, SSA did not have definitive plans to
extend the matching agreement with Texas or pursue similar agreements with other
States. Our analysis of actual data match results determined that unreported or
incorrectly reported WC payments resulted in $11.49 million in overpayments and
$1.80 million in underpayments. As of December 13, 2004, SSA had recovered
$4.11 million in overpayments and paid $1.80 million to correct benefit payments to
underpaid DI beneficiaries. If SSA conducted data matches with the nine States with
the highest DI benefit payments and found results similar to those in Texas, SSA could
identify an estimated $87 million in additional overpayments.


DATA MATCH PROCEDURES

SSA’s procedures for identifying unreported or incorrectly reported WC benefits in
Texas were effective and provided assurance that inaccurate DI payments were
detected and resolved. SSA matched Texas WC data with DI records to identify
individuals who received both WC and DI benefit payments. SSA applied screening
criteria to eliminate cases where SSA and Texas WC records agreed and where the
period of WC payments preceded the period of DI entitlement. The match identified
6,280 records where SSA did not have previous WC information or the amount of WC
was different than the amount reflected in SSA’s records.

From this number, SSA eliminated duplicates and records identified through other WC
initiatives. SSA forwarded 5,236 records to the Mid-America Program Service Center
(MAMPSC) for review. MAMPSC focused its efforts primarily on those records where it
did not previously have WC information and selected a portion of the other records for
development. In total, MAMPSC reviewed 4,181 records, which consisted of
3,463 records with no previous WC information and 718 records where WC amounts
reported differed from amounts in the Texas WC file. MAMPSC then identified records
that would potentially impact DI benefits and verified the accuracy of the WC amounts
by contacting the respective insurance companies responsible for paying the WC
claims. Based on these contacts, MAMPSC personnel updated SSA records with the
correct WC payment information. With this corrected information, SSA recalculated the
DI benefits and compared these amounts to benefits actually paid to identify
over/underpayments.

MAMPSC tracked the results of this process for 1,691 records, and SSA used these
results to complete a cost-benefit analysis. Based on this analysis, SSA projected the
Page 3 – The Commissioner

completed data match would identify $13.3 million in overpayments, and it could expect
to collect approximately $11.3 million (85 percent). SSA estimated it cost $925,000 to
complete the match and recalculate the benefits.

IMPACT ON DISABILITY INSURANCE BENEFITS

To evaluate the overall impact of the pilot data match, we analyzed SSA’s records to
quantify the actual amount of over/underpayments. Our analysis disclosed that
2,054 beneficiaries were overpaid $11.49 million in DI benefits—an average of $5,594
per beneficiary. Another 307 beneficiaries were underpaid $1.80 million in DI benefits—
an average of $5,863 per beneficiary. Had correct and timely WC information been
available to SSA when it calculated benefits for these individuals, the Agency could
have avoided $11.49 million in improper payments. Also, SSA could have ensured that
some DI beneficiaries had the use of an average of $5,863 more in benefits to which
they were entitled but were not paid timely.

SSA could identify substantial overpayments and potentially reduce future improper
payments if DI benefit data matches with WC information from other large States
produced results similar to those found in Texas. From 1991 through 2001, SSA paid
$24.6 billion in DI benefits to Texas residents and Texas paid $22.6 billion in WC to its
residents. SSA’s data match with Texas WC information determined that .047 percent
of the DI benefits paid to Texas residents were overpayments because DI recipients did
not disclose or accurately report WC information to SSA.

To quantify the potential overpayments for other large States, we identified the
10 largest States (Texas ranked fourth) in terms of resident’s receipt of DI benefit
payments during the 1991 through 2001 timeframe spanned by the Texas data and the
corresponding WC benefit payments for each year. We then compared the amount of
DI benefits paid to the amount of WC paid in these States and selected the lower
amount paid each year. We totaled the lower amounts selected each year for each
State and applied the .047 percent overpayment error rate identified from the data
match with the Texas information. As illustrated in the following table, if SSA were to
conduct data matches with the nine States with the highest DI benefit payments and
results similar to those in Texas were found, SSA could identify an estimated $87 million
in additional overpayments.
Page 4 – The Commissioner


                      Lesser of Annual Disability
                        Insurance or Worker’s                                   Estimated
                       Compensation Benefits               Texas Error        Overpayments
           State        1991-20012 ($ millions)               Rate             ($ millions)
    California                $ 42,165                       .04668%              $19.7
    New York                    28,544                       .04668%              $13.3
    Florida                     24,685                       .04668%              $11.5
    Pennsylvania                20,183                       .04668%              $ 9.4
    Ohio                        19,848                       .04668%              $ 9.3
    Illinois                    17,829                       .04668%              $ 8.3
    Michigan                    15,437                       .04668%              $ 7.2
    Georgia                      9,667                       .04668%              $ 4.5
    North Carolina               7,536                       .04668%              $ 3.5
           Total              $185,894                       .04668%              $86.7

STATUS OF PAYMENTS AND COLLECTIONS

Of the $11.49 million in overpayments identified as a result of the data match, SSA had
collected $4.11 million as of December 13, 2004. An additional $3.95 million was in
collection status while the remaining $3.43 million was waived, adjusted, or written off
as uncollectible. Further, SSA paid $1.80 million to the underpaid beneficiaries. The
following chart summarizes the status of these overpayments.

                     Texas Data Match Overpayment Collection Status
                                            ($ millions)


                                                                   Recovered

                                       $1.89                       In Collection
                            $3.95              $1.05
                                                                   Waived
                                               $0.49
                                  $4.11                            Adjusted

                                                                   Uncollectible




2
 DI payment data for Calendar Years 1991 through 2001 per Social Security Bulletin Annual Statistical
Supplement, 1992-2002, Table 5.J OASDI Current-Pay Benefits: Geographic Data. WC payment data for
Calendar Years 1991 and 1992 per Social Security Bulletin Fall 1993; for Calendar Year 1993 per Social
Security Bulletin Summer 1995; for Calendar Years 1994 through 2001 per the National Academy of
Social Insurance’s Workers’ Compensation: Benefits, Coverage, and Costs reports dated fall 1997, May
2001 and August 2004.
Page 5 – The Commissioner

CONCLUSION AND RECOMMENDATIONS

SSA determined that it was cost-effective to use the WC data provided by Texas and
match it with its records. The actual results identified 2,054 DI beneficiaries who
received $11.49 million in benefits to which they were not entitled, while another
307 beneficiaries received $1.80 million less than entitled. We determined that SSA’s
process for conducting its match was effective and provided assurance that inaccurate
DI payments to Texas residents were detected and resolved. However, at the time of
our review, SSA had not extended its matching agreement with Texas, nor had the
Agency aggressively pursued similar agreements with other States. If SSA were to
conduct data matches with the nine States with the highest DI benefit payments and
results similar to those in Texas were found, we estimate SSA could identify
approximately $87 million in additional overpayments.

We recommend that SSA:

1. Continue to work with Texas to periodically obtain updated WC data.

2. Pursue similar matching agreements with other States to obtain WC information.

AGENCY COMMENTS
SSA agreed with our recommendations. In responding to our report, SSA expressed its
belief there are significant problems in extrapolating the Texas pilot results to the entire
nation. See Appendix B for the text of SSA’s comments.

OFFICE OF THE INSPECTOR GENERAL RESPONSE
Recognizing there are concerns with extrapolating the results from the Texas match to
the entire nation, we took a conservative approach and used nine States in our
estimate. The purpose of our estimate was to demonstrate that matching agreements
with other States may be worthwhile for SSA to pursue as they may lead to the
prevention of significant overpayments. We agree that this estimate is preliminary.
Also, if any of the nine largest States do not have the data needed to perform matches
with SSA, other States may have the necessary information and be worthwhile to
contact regarding matching agreements with SSA.




                                                 S
                                                 Patrick P. O'Carroll, Jr.
                                     Appendices
APPENDIX A – Scope and Methodology
APPENDIX B – Agency Comments
APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                                      Appendix A

Scope and Methodology
To accomplish our objective, we:

•   Reviewed the Social Security Administration’s (SSA) procedures for conducting the
    data match.

•   Interviewed personnel in SSA’s Office of Public Service and Operations Support;
    Office of Earning and Information Exchange; Office of Income Security Program;
    Division of Client, Enumeration, and Exchanges; Division of Title II Control &
    Queries; and Mid-America Program Service Center.

•   Obtained the list of Social Security numbers from SSA for the Disability Insurance
    beneficiaries with unreported and incorrectly reported Texas workers’ compensation
    payments.

•   Reviewed Master Beneficiary Record; Recovery of Overpayments, Accounting and
    Reporting; and Payment History Update System records.

•   Reviewed a statistical sample of 50 records to verify the accuracy of workers’
    compensation payments and the dates SSA used to recalculate and correct
    Disability Insurance benefits.

•   Identified overpayments and underpayments, and summarized the results.

We did not validate the accuracy of the system generated workers’ compensation offset
calculations or review the justification for overpayment waivers, reductions, or amounts
considered uncollectible. We did not test the general or application controls of the
Master Beneficiary Record; Recovery of Overpayments, Accounting and Reporting; or
Payment History Update System. Instead, we traced data to supporting documentation
and found the data sufficiently reliable to meet our objectives. We performed our audit
in Baltimore, Maryland; Kansas City, Missouri; and Dallas, Texas, from June 2004
through January 2005. The principle entity audited was the Mid-America Program
Service Center under the Deputy Commissioner for Operations. We conducted our
review in accordance with generally accepted government auditing standards.
                  Appendix B

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      July 13, 2005                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "The Social Security Administration's Match
           of Disability Insurance Records with Texas Workers' Compensation Payment Data"
           A-06-05-15024 -- INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Candace Skurnik, Director, Audit Management and Liaison Staff on extension 54636.

           Attachment:
           SSA Response




                                                        B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT "THE SOCIAL SECURITY ADMINISTRATION'S MATCH OF DISABILITY
INSURANCE RECORDS WITH TEXAS WORKERS' COMPENSATION PAYMENT
DATA" (A-06-05-15024)


Thank you for the opportunity to review and comment on the draft report. When the match of
SSA’s Disability Insurance (DI) records against Texas worker’s compensation (WC) payment
data was done, two types of alerts were generated: "Type A,” where no offset had ever been
imposed by SSA, and "Type B,” where SSA had imposed an offset but our data did not match
the compensation rates. "Type A” alerts produced the majority of the overpayments, while
"Type B” alerts produced more underpayments than overpayments.

We conducted a cost-benefit analysis of the WC match and reported a benefit to cost ratio of
18.4:1 for "Type A” alerts and 1.8:1 for "Type B” alerts. Clearly, it was effective to work the
"Type A” alerts; however, future "Type B” alerts would probably have a different outcome from
those contained in the draft report as the procedures for periodic re-verification of WC payments
have been changed. Effective May 2001, all cases now require a review for verification of WC
payments. Previously about 30 percent of all cases alerted for a WC redetermination were
automatically screened out by the system. This verification procedure will include cases that
would have produced a “Type B” alert. Because of this change, we would favor restricting the
scope of any future matches to only identifying cases where the receipt of the WC was never
reported, a “Type A” alert.

During the pilot, SSA discovered that the software program used to extract data from the Texas
WC match did not always provide reliable data. For example, the date of first payment (which
could include several different rates of compensation over an extended period of time) was
extracted rather than the initial compensation rate. Since the information received was not
clearly identified, additional extensive development was required to determine the correct dates
and amounts for the entire period through contact with the WC carrier and/or the beneficiary.
Further, since this information was several years old, developing the information was difficult
and often created multiple development of the same period of time. In short, prior to any further
implementation of the pilot effort, analysis of State data must be completed to ensure that it is in
a format that allows us to extract and convert the information to suit SSA’s needs.

While we do not question tabulated results of the Texas pilot, we believe there are some
significant problems with extrapolating those results to the entire nation as contained in the draft
report. OIG identifies the nine States besides Texas with the largest numbers of residents that
received DI benefits between 1991 and 2001. These numbers were then compared to the results
of the Texas match to estimate an additional $87 million in overpayments. We note that two of
the States, Florida and Ohio, have some version of reverse offset provisions, so that the amounts
of overpayment projected for those States would be expected to be less. Pennsylvania does not
maintain a centralized database of WC payments (all payments are made directly by insurers and
self-insured employers to injured workers); as such, there is no payment database that SSA could
access.



                                                B-2
OIG’s calculation of estimated overpayments seems to presume that all of the identified States
have the same requirement to report WC benefits as exists in Texas, and that there is the same
degree of non-compliance that was found in that State. According to our tabulations, Texas has
an unusually high percentage of their DI worker population in WC offset – 8.6 percent. None of
the nine States in OIG’s list has a percentage greater than 7.0, and some are much lower. OIG
reported an administrative cost of about $1 million for the Texas match. Therefore, we believe
the report's estimate should be viewed as a preliminary estimate and may be overstated.

Our responses to the specific recommendations are provided below.

Recommendation 1

Continue to work with Texas to periodically obtain updated WC data.

Response

We agree. An ongoing working relationship with Texas should be maintained and periodic
updates of the data will prove useful, but the expected benefit will diminish. The pilot covered a
10-year span of information and netted 2,361 payment errors after a very large universe of
possible cases was cross-checked. With an abbreviated time period for the matching batch
information (2003 to present), it would be expected that there would be a corresponding drop in
the discovered payment errors.

Recommendation 2

Pursue similar matching agreements with other States to obtain WC information.

Response

We agree. The Workers Compensation Workgroup (WCW), a recently formed intercomponent
effort, is addressing the replication of the Texas pilot in other States. The WCW is currently in
the process of researching which States and/or outside entities (Centers for Medicare and
Medicaid Services) can provide a centralized electronic database with applicable WC data
elements. Items such as compatible systems requirements and the data elements needed by SSA
and gathered from Texas are being assessed. Though it appears appropriate to focus efforts in
the direction of those States identified as the ten highest DI payment States, legal idiosyncrasies
(e.g., Florida is a reverse offset state) or systems limitations (e.g., California has no centralized
WC data) will affect the final recommendations as to which States will be best suited for a
Texas-type matching program.

[The Agency also provided technical comments which have been incorporated as
appropriate.]




                                                 B-3
                                                                       Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Paul Davila, Director, (214) 767-6317

   Ron Gunia, Audit Manager, (214) 767-6620

Acknowledgments

In addition to those named above:

   Lela Cartwright, Auditor-in-Charge

   Brennan Kraje, Statistician


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-05-15024.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.

                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.

                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
